                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 112070049                                                                Page 1 of 1



         We received an allegation that a professor1 may have developed and exported an NSF-funded
         scanning tunneling microscope (STM) to China. We reviewed information for awards on which
         the professor served as PI and interviewed an NSF Program Officer. We determined the
         allegation was unsubstantiated.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
